    Office of Inspector General
          Audit Report


   NHTSA’S OVERSIGHT OF MISSISSIPPI’S
MANAGEMENT OF FEDERAL HIGHWAY SAFETY
     GRANTS NEEDS STRENGTHENING


     National Highway Traffic Safety Administration

             Report Number: MH–2013–040
             Date Issued: February 6, 2013
           U.S. Department of
                                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Final Report: NHTSA’s Oversight of                                            Date:    February 6, 2013
           Mississippi’s Management of Federal Highway
           Safety Grants Needs Strengthening
           National Highway Traffic Safety Administration
           Report No. MH-2013-040

  From:    Joseph W. Comé                                                                    Reply to
                                                                                             Attn. of:    JA–40
           Assistant Inspector General for
              Highway and Transit Audits

    To:    National Highway Traffic Safety Administrator

           The National Highway Traffic Safety Administration (NHTSA) awards safety
           grants to States for programs to reduce fatalities, injuries, and economic losses
           resulting from motor vehicle crashes. According to NHTSA, Mississippi has the
           highest rate of vehicle fatalities in the Nation and the third highest rate of alcohol-
           related fatalities. 1 For fiscal years 2007 through 2010, NHTSA provided
           $20.8 million in highway safety grant funds to the Mississippi Office of Highway
           Safety (MOHS). 2 In addition to this amount, Mississippi transferred $36.3 million
           from its Federal-aid highway construction funds to the highway safety program
           under Section 154 of Title 23 United States Code (U.S.C.) to be used for alcohol-
           impaired driving programs. 3 In January 2011, NHTSA designated Mississippi’s
           highway safety program as “high risk” because of deficiencies in its management
           of Federal funds and lack of conformance with Federal grant terms and conditions.
           Mississippi is the only State in the nation with a high-risk designation.

           At NHTSA’s request, we initiated an audit of Mississippi’s management of
           Federal highway safety grants. Specifically, our objectives were to (1) determine
           whether MOHS sufficiently administered the highway safety grant program to

           1
             These statistics are based on a 3-year moving average, for fiscal years 2008-2010, of fatalities per 100,000 people.
           2
             Pub. L. 109-59, “Safe, Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users” (SAFETEA-
           LU), authorized grant and transfer funds during the fiscal years covered by our audit. On July 6, 2012, Pub. L. 112-141,
           “Moving Ahead for Progress in the 21st Century (MAP-21) replaced SAFETEA-LU.
           3
             Mississippi does not have an open container law that complies with Federal requirements. Therefore, under 23 U.S.C.
           § 154, it is subject to transferring 3 percent of its Federal-aid highway construction funds to its highway safety program
           for alcohol-impaired driving countermeasures, enforcement of laws prohibiting impaired driving, or hazard elimination.
           MAP-21 replaced the 3 percent transfer provision with a 2.5 percent provision.
                                                                                                                     2


ensure compliance with Federal grant requirements and (2) assess NHTSA’s
oversight of MOHS’s compliance with Federal grant requirements.

We conducted this review between June 2011 and November 2012 in accordance
with Government auditing standards prescribed by the Comptroller General of the
United States. As part of this audit, we interviewed NHTSA, State of Mississippi,
and MOHS officials; reviewed MOHS’s financial management controls for
administering Federal safety grants; and evaluated NHTSA’s actions for providing
oversight of MOHS and enforcing its recommendations. In conducting our work,
we selected a statistical sample of $10.4 million from a universe of $45.3 million
in payment vouchers which allowed us to project the total amount of improper
payments made by MOHS. Exhibit A provides more details on our scope and
methodology.

RESULTS IN BRIEF
MOHS did not administer Section 154 alcohol-impaired driving transfer funds in
accordance with Federal requirements. MOHS inappropriately entered into grant
agreements with State and local law enforcement agencies, allowing them to
conduct ineligible general law enforcement activities instead of focusing on
alcohol-impaired driving enforcement, as required by Section 154. As a result,
ineligible enforcement activities occurred and MOHS made improper payments to
its sub-grantees. MOHS subsequently made claims for reimbursement from
NHTSA for these activities that were not directly related to alcohol-impaired
driving. 4 We analyzed a statistical sample of $10.4 million in grant fund
disbursements and identified improper payments totaling $102,218. Based on a
statistical projection, we estimated that MOHS made approximately $7.1 million
in improper payments to its sub-grantees for ineligible transactions for fiscal years
2007 through 2010. 5 MOHS’s misuse of Section 154 funds and its inadequate
financial management controls 6 were likely contributing factors to these improper
payments. Specifically, we found that MOHS had (1) inadequate accounting
controls and processes to prepare Federal reimbursement vouchers, (2) inadequate
documentation of financial transactions, and (3) improper segregation of duties
and lack of supervisory review.



4
  Office of Management and Budget Circular A-123, Appendix C (August 2006) classifies improper payments as a
duplicate payment, a payment in an incorrect amount, a payment for an ineligible recipient or services, services not
received, or a payment with insufficient documentation.
5
  Our projection was based on the results of a statistical sample of $10.4 million, or 23 percent of $45.3 million, in
grant fund disbursements for fiscal years 2007 through 2010. Our projection of $7.1 million in improper payments has
90 percent confidence limits ranging from $4.7 million to $9.5 million.
6
  49 Code of Federal Regulations (CFR) § 18.20 provides standards for State grantee financial management systems.
State fiscal controls and processes must be sufficient to prepare reports and adequately track funds to determine proper
use.
                                                                                                          3


Through its oversight process, NHTSA documented significant deficiencies in
MOHS’s administration of highway safety grants as far back as 2006, but has
made limited progress in getting MOHS to address its weak financial management
controls and poor conformance with grant requirements. NHTSA’s longstanding,
though largely unsuccessful, efforts to obtain timely corrective actions culminated
in its January 2011 designation of Mississippi as a high-risk grantee. 7 The high-
risk designation allows NHTSA to require that MOHS conduct additional
monitoring and reporting on sub-grantees, and to seek NHTSA’s approval for
certain expenditures. However, unlike other Operating Administrations, NHTSA
does not have specific agency guidance on how and when to invoke the high-risk
designation, or when to use remedies and sanctions against States for lack of
compliance with Federal grant regulations. The lack of guidance may have
delayed NHTSA’s decision to designate Mississippi’s highway safety program as
high risk. Without agency guidance or criteria, NHTSA lacks a useful tool for
determining when enforcement action is warranted and for clearly communicating
to the States the consequences for noncompliance with critical oversight
requirements.

We are making a series of recommendations to improve NHTSA’s oversight of
MOHS and its efforts to obtain MOHS’s correction of weaknesses in the
management of Federal funds.

BACKGROUND
NHTSA awards highway safety grants to States for programs to reduce fatalities,
injuries, and economic losses resulting from motor vehicle crashes. These safety
programs promote safety belt use and discourage alcohol-impaired driving, among
other activities. States allocate Federal grant funds to other State agencies, local
agencies including law enforcement agencies, and nonprofit organizations.

At the time of our review, Mississippi was 1 of 11 States that had not passed an
open container statute that conforms to Federal requirements; therefore, during the
time period covered by our audit, the State was subject to Federal statutes that
required it to transfer 3 percent of its Federal-aid highway construction funds to its
highway safety program. 8 These transfer funds must be used for alcohol-impaired
driving countermeasures, enforcement of drinking and driving laws, or hazard
elimination activities. 9




7
  NHTSA can designate States as high-risk grantees under Uniform Administrative Requirements for Grants and
Cooperative Agreements to State and Local Governments (49 CFR § 18.12), also known as the Grant Common Rule.
8
  MAP-21 replaced the 3 percent transfer provision with a 2.5 percent provision.
9
  Under MAP-21, hazard elimination activities have been replaced by the highway safety improvement program.
                                                                                                                 4


The Improper Payments Information Act (IPIA) 10 provides a framework for
agencies to use to test for improper payments, identify their causes, and implement
solutions to reduce them. The Office of Management and Budget (OMB)
established detailed requirements 11 to comply with IPIA. Executive Order 13520
(November 2009) underscores the importance of reducing improper payments and
eliminating fraud, waste, and abuse in Federal programs. OMB is working to hold
agencies accountable for misusing taxpayer dollars and is creating stronger
incentives for reporting, reducing, and recovering these erroneous payments.
Accordingly, NHTSA and MOHS are responsible for taking steps to reduce
improper payments from Federal funds, such as payments for ineligible services,
duplicate and incorrect payment amounts, and payments based on insufficient
supporting documentation.

MOHS DID NOT COMPLY WITH FEDERAL REQUIREMENTS FOR
ADMINISTERING HIGHWAY SAFETY GRANTS
MOHS did not administer Section 154 alcohol-impaired driving transfer funds in
accordance with Federal requirements, resulting in improper payments using
Federal grant funds. Moreover, MOHS did not have sufficient financial
management controls to ensure proper management of highway safety grant funds
and to mitigate the risks of improper payments and fraud, waste, and abuse.

MOHS Did Not Comply With Requirements for Administering Alcohol-
Impaired Driving Transfer Funds
MOHS’s noncompliance with Federal requirements for administering Section 154
transfer funds resulted in improper payments 12 to sub-grantees for ineligible
general traffic law enforcement activities. Specifically, Mississippi did not
exclusively use Section 154 funds for alcohol-impaired driving countermeasures
or enforcement of drinking and driving laws―such as concentrating on the
enforcement of violations of the State’s driving under the influence (DUI) statute.
Instead, MOHS inappropriately entered into grant agreements with State and local
law enforcement agencies that permitted them to use Section 154 funds to conduct
general law enforcement activities, such as issuing citations for speeding and seat
belt violations. Because of these inappropriate agreements and the ineligible
general traffic enforcement, MOHS made improper payments to the law
enforcement agencies and subsequently requested reimbursement for these
payments from NHTSA.


10
   Pub. L. No. 107-300 (2002).
11
   OMB Circular A-123, Appendix C (August 2006).
12
   For the purposes of this audit, we defined an improper payment as a duplicate payment, a payment in an incorrect
amount, a payment for ineligible service, or a payment with insufficient documentation.
                                                                                                                     5


Specifically, our statistical sample of $10.4 million in grant fund disbursements
for fiscal years 2007 through 2010 identified improper payments totaling
$102,218. Based on our sample findings, we project that MOHS made improper
claims to NHTSA for reimbursement of approximately $7.1 million for ineligible
costs. 13

The improper payments we identified resulted from MOHS making
reimbursement claims for State and local law enforcement officers’ wages paid to
the officers for conducting activities that did not meet Section 154 eligibility
requirements. Most notably, 93 of the 127 14 State and local police officers in our
statistical sample, or 73 percent, did not issue any DUI citations during the time
periods we analyzed. We found that only 147, or 5 percent, of the 2,926 citations
that the 127 officers issued were for DUI violations (see table 1). The 127 officers
issued DUI citations at a collective rate of 1 per 28.6 enforcement hours. Based on
the grant agreement provisions, the low percentage of DUI citations issued, and
the high percentage of law enforcement officers who did not issue any DUI
citations, we concluded that Mississippi was not complying with Section 154
requirements. Exhibit B provides more detail on our analysis.
Table 1. Types of Citations State and Local Law Enforcement
Officers Issued Under Section 154 Projects
                                                         Seatbelt
Law                                           Total       & Child                                            Percent
Enforcement        Number       Hours     Citations     Restraint    Speeding        Other           DUI       of DUI
Agencies           Officers    Worked       Issued      Citations    Citations    Citations    Citations    Citations
State                    68        992        1,791           157          870          749            15          0.8

Local                    59      3,213        1,135           132          159          714          132          11.6

Total                  127       4,205        2,926           289        1,029        1,463          147           5.0
Source: OIG analysis of a sample of 127 law enforcement officers

According to NHTSA, varying conditions can impact the citation average in
different jurisdictions; but it has not and does not plan to establish a standard or
performance target for the number or rate of DUI citations that should be issued
within a given time frame. Lacking an established NHTSA standard or target, we
used a reasonable baseline of one citation per 16 hours of duty time to test Section
154 compliance. We judgmentally developed our baseline using 16 hours as the
equivalent of two full-time 8-hour shifts during which alcohol-impaired driving is
targeted. NHTSA officials agreed that our baseline is reasonable as a calculation
tool for our audit. However, NHTSA did not want the baseline to be construed as a
performance standard or target for States. Based on our analysis, only 21 of the
127 officers met the baseline. As a result, there were significant variations in the

13
   Our projection was based on the results of a statistical sample of $10.4 million, or 23 percent of $45.3 million, in
grant fund disbursements for fiscal years 2007 through 2010. Our projection of $7.1 million in improper payments has
90 percent confidence limits ranging from $4.7 million to $9.5 million.
14
   The 127 officers were located in 22 jurisdictions.
                                                                                                                      6


number of DUI citations issued by officers. For example, 1 officer issued 26 DUI
citations during a 4-week period, but another officer issued no DUI citations
during a similar 4-week period.

Although some local law enforcement agencies designated full-time DUI officers,
these officers did not always concentrate on DUI-related activities―indicating
that Federal grant funds were used to supplant the costs of general law
enforcement. 15 Federal regulations prohibit the use of Federal funds for general
expenses required to carry out other responsibilities of a State or its sub-grantees.
Our analysis found that 14 designated full-time DUI officers worked general law
enforcement activities under Section 154 grant agreements. The use of Section 154
funds in these cases calls for the State and NHTSA to provide more consistent
oversight to ensure full compliance with Federal requirements.

MOHS Did Not Have Sufficient Financial Management Controls To
Manage Federal Highway Safety Grants
MOHS did not have sufficient controls 16 to effectively manage Federal highway
safety grants, including Section 154 transfer funds. We identified financial control
weaknesses at MOHS that increase the risk of improper payments, including
(1) lack of accounting controls and processes to prepare Federal reimbursement
vouchers, (2) inadequate documentation of financial transactions, and (3) improper
segregation of duties and lack of supervisory review. MOHS’s deficiencies in
managing Federal funds violate the control requirements set forth in the Grant
Common Rule 17 and the elements of internal control in the Government
Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government. Although we did not identify any specific instances of fraud, internal
controls serve as the first line of defense in safeguarding assets and preventing and
detecting fraud, abuse, and improper payments.

MOHS did not have adequate accounting controls and processes to prepare
Federal reimbursement vouchers and lacked an automated grants processing
system. We identified mathematical errors, and omissions and duplications in the
manual system MOHS used to accumulate accounting data to prepare its requests
for reimbursement from NHTSA. MOHS also lacked documentation to support
some payments and could not reconcile grant fund balances in the State
accounting system with grant fund balances in NHTSA’s grant tracking system.
Further, outside our sample, we identified $232,981 in improper

15
   Supplanting is the replacement of existing State or local expenditures with the use of Federal grant funds and/or
using Federal grant funds for costs of activities that constitute general expenses required to carry out the overall
responsibilities of State, local, or federally recognized Indian tribal governments.
16
   Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1)
17
   49 CFR § 18.20. This section of the Grant Common Rule requires that grantees maintain fiscal controls and
accounting procedures that permit sufficient tracking of grant funds to related expenditures to establish that funds have
not been used in violation of restrictions and prohibitions of applicable statutes.
                                                                                                                   7


payments―duplicate Section 154 reimbursement amounts of $99,127 in wages of
local law enforcement officials, $88,946 in payments of Section 154 contracts to a
local State university, $30,148 in an erroneous adjusting entry, and $14,760 in
unsupported costs. 18

MOHS did not sufficiently document financial grant transactions, leaving an
inadequate audit trail. MOHS staff made adjusting entries to financial records
without an explanation or audit trail, and offset these adjustments against valid
transactions. Moreover, MOHS did not sufficiently record grant-funded equipment
with a cost of $1,000 or more to its equipment inventory. 19 We identified nearly
$100,000 in equipment that was not included in the inventory.

MOHS did not properly segregate and supervise duties required to process grant
claims from those required to reimburse vouchers. For example, one MOHS
accountant was the final level of review for all sub-grantee claims for
reimbursement, paid the claims, and prepared Federal reimbursement
vouchers―functions that should be separated to reduce the risk of fraud, waste,
and abuse. These functions were performed with little or no supervision. Not only
was the accountant the only MOHS official with detailed knowledge of the
highway safety grant payments and accounting transactions, but MOHS did not
have a designated official, such as an internal auditor, to conduct periodic
assessments of the MOHS internal controls. Periodic assessments would provide
NHTSA and MOHS assurance that proper grant management financial controls
are in place and working effectively.

After we completed our audit work, NHTSA informed us that MOHS took action
to correct internal control weaknesses in its financial management of the highway
safety program. For example, MOHS hired a new finance manager and agreed to
add a full-time auditor to its staff in fiscal year 2013; separated the review and
approval of sub-grantee claims; began a process to reconcile State payment
records to reimbursement claims to NHTSA; and included written procedures for
inventory control and management in its revised policy and procedures manual.
However, NHTSA faces an ongoing challenge to ensure that MOHS effectively
and fully implements these corrective actions in a timely manner.




18
  The improper payments of $232,981 are included in our overall estimate of $7.1 million in improper payments.
19
  The Grant Common Rule requires a State to account for grant funds in compliance with State laws and procedures
for expending and accounting for its own funds. State regulations require an inventory of equipment costing $1,000 or
more.
                                                                                                                        8


NHTSA IDENTIFIED NEEDED CORRECTIVE ACTIONS BUT MADE
LIMITED PROGRESS IN OBTAINING TIMELY COMPLIANCE
NHTSA documented significant deficiencies in MOHS’s administration of
highway safety grants as far back as 2006, but had limited success in obtaining
MOHS’s correction of weak financial management controls, poor conformance
with grant requirements, and overall unsatisfactory performance. NHTSA’s
longstanding efforts to obtain corrective actions culminated in its January 2011
designation of Mississippi as a high-risk grantee. However, NHTSA does not have
specific agency guidance on how and when to invoke the high-risk designation, or
when to use remedies and sanctions on States with significant compliance issues.

NHTSA Identified Management and Compliance Deficiencies With
MOHS’s Administration of Safety Grants That Remain Unresolved
NHTSA has longstanding issues associated with MOHS’s highway safety grant
program deficiencies that have not been corrected. From 2006 through 2009,
NHTSA conducted formal reviews of MOHS’s alcohol-impaired driving program
and its highway safety grant program, resulting in both required and recommended
corrective actions. 20 For example, based on its 2006 review, NHTSA identified
deficiencies with and made recommendations designed to improve MOHS’s
impaired driving program. Additionally, NHTSA’s 2009 review resulted in
recommendations for best practices and required financial management actions—
such as implementation of internal and budget controls and processes to comply
with the Grant Common Rule; procedures to ensure that sub-grantees are timely
reimbursed for valid claims; and reviews to ensure that grant activity reports and
certifications are timely, complete, and accurate.

In 2008, NHTSA informed MOHS of its noncompliance with Federal grant
requirements, specifically MOHS’s inappropriate use and inadequate oversight of
Section 154 transfer funds. In May 2010, NHTSA informed MOHS of the
potential that the State’s highway safety grant program could receive a high-risk
designation. However, NHTSA’s unsuccessful efforts to obtain corrective actions
from MOHS culminated in its January 2011 designation of Mississippi as a high-
risk grantee. This designation allows NHTSA to require that MOHS provide more
detailed financial reports and additional project monitoring, obtain technical or
management assistance, and obtain prior NHTSA approval of grant expenditures.

According to NHTSA, MOHS has made progress in addressing the longstanding
required and recommended actions from its 2009 review. At the time of our

20
   NHTSA differentiates between “required actions” that relate to States’ noncompliance with Federal and/or State
statutes, regulations, rules, policies, and guidelines, and “recommended actions” that improve the State’s highway
safety program by implementing best practices that do not specifically relate to statutes, regulations, rules, policies, or
guidelines. According to NHTSA, it cannot mandate the State to act on recommended actions.
                                                                                   9


review, three financial management actions, required by the Grant Common Rule,
and eight recommended best practices remained open. Accordingly, NHTSA faces
a key challenge to ensure that MOHS sustains its efforts to address these actions.

NHTSA Does Not Have Adequate Guidance for Using Remedies and
Sanctions Against High-Risk Grantees
NHTSA has not developed specific agency guidance or criteria on how and when
to use its enforcement authority or how its regional offices should use remedies
and sanctions against grantees that have been designated as high risk. NHTSA
officials stated that they were reluctant to develop any criteria because of concerns
that specific guidance would limit NHTSA’s flexibility to take unique
enforcement actions against any particular grantee. Instead of developing agency
criteria, NHTSA relies on the guidelines in the Common Grant Rule for
designating a State as high risk and for using remedies and sanctions for high-risk
grantees. This rule provides remedies and sanctions for failure to comply with
grant regulations, including withholding funds pending correction of deficiencies,
disallowing all or part of the cost of noncompliance, suspending or terminating all
or part of the State’s highway safety program, or withholding future funding.

We recognize that NHTSA may rely on the Common Grant Rule to provide
guidance on the range of available sanctions and remedies. However, in our
opinion, without specific agency guidance or criteria, NHTSA lacks a useful tool
for determining when enforcement action is warranted and for clearly
communicating to the States the consequences for noncompliance with critical
oversight requirements. Such guidance could permit flexibility in NHTSA’s
implementation of specific enforcement actions while still providing NHTSA
Regional Offices with a useful means to emphasize timely compliance when
discussing grant oversight problems with their respective States. After
documenting problems with MOHS’s administration of Section 154 alcohol
transfer funds in 2008 and its noncompliance with the Grant Common Rule in
2009, NHTSA took 2 more years to designate Mississippi’s highway safety
program as high risk. More specific guidance establishing a timeline for such
actions might have accelerated the process.

NHTSA could benefit from the experience of other Operating Administrations in
developing guidance for using remedies and sanctions against high-risk grantees.
For example, the Federal Transit Administration (FTA) has guidance on using
remedies and sanctions to reduce the risk of noncompliance. FTA’s guidance
generally describes actions that regions can take and requires the designation of a
grantee as high risk 1 year after notice of noncompliance. After 2 years, FTA
places restrictions on the grantee’s future grant approvals involving
noncompliance and restricts funds in existing grants until the grantee takes
corrective measures. FTA plans to revise its guidance as part of a comprehensive
                                                                                                    10


review of its oversight program, in response to recommendations in our recent
report on FTA grant oversight. 21

CONCLUSION
NHTSA’s infusion of millions of Federal grant dollars into State highway safety
programs is intended to reduce fatalities, injuries, and economic losses resulting
from motor vehicle crashes. Robust policies, guidance, and grant oversight is
critical for NHTSA and State highway safety agencies as they implement
important programs. Our work has demonstrated that NHTSA will need validated
assurance from MOHS that it will comply with Federal grant requirements,
implement satisfactory systems of grant financial management controls, and take
actions to correct deficiencies. Without such assurances, NHTSA cannot ensure
that MOHS’s claims for reimbursement are free from improper payments or that
the risks of fraud, waste, abuse, and mismanagement of funds are mitigated.

RECOMMENDATIONS
We recommend that the National Highway Traffic Safety Administrator:

1. Work with MOHS to develop an action plan, with milestones, to:

     a. Obtain technical assistance to identify and implement financial
        management internal controls to comply with the Grant Common Rule;
        Government Accountability Office Standards for Internal Control; and
        other applicable laws, regulations, and program compliance requirements.

     b. Implement improved processes to calculate reimbursement claims to
        NHTSA, such as an automated grants system used by other State highway
        safety offices.

     c. Obtain independent assurance that proper grant management controls and
        financial and accounting procedures are in place and working effectively.

     d. Develop guidance for monitoring the use of local officers as full-time
        driving under the influence officers to ensure appropriate use of Section
        154 funds.

2. Develop an action plan for monitoring Mississippi’s grant agreements with
   sub-grantees, once the high-risk designation is removed, to ensure compliance
   with Federal requirements.


21
  OIG Report Number MH-2012-168, “Improvements Needed In FTA’s Grant Oversight Program,” August 2, 2012.
OIG reports are available on our Web site at http://www.oig.dot.gov.
                                                                                11


3. Identify actions NHTSA will take to recover improper payments.

4. Develop guidance with parameters and timelines for designating State grantees
   as high risk, restricting or withholding grant funds from grantees, and
   implementing other available remedies and sanctions for noncompliance with
   Federal grant regulations or requirements.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided NHTSA with our draft report on November 14, 2012, and received
its response on January 18, 2013. NHTSA’s complete response is included as an
appendix to this report. In its response, NHTSA concurred with all four of our
recommendations and provided appropriate planned actions and target dates for
completion. Accordingly, we consider the four recommendations resolved but
open pending completion of planned actions.

ACTIONS REQUIRED
NHTSA’s planned actions for all four recommendations are responsive, and its
target action dates are appropriate. In accordance with the follow-up provisions in
Department of Transportation Order 8000.1C, we request that NHTSA provide
information demonstrating completion of its planned actions within 10 days after
action is taken. All four recommendations will remain open pending receipt of this
information.

We appreciate the courtesies and cooperation of National Highway Traffic Safety
Administration representatives during this audit. If you have any questions
concerning this report, please call me at (202) 366–5630 or Kerry R. Barras,
Program Director, at (817) 978–3318.
                                        #

cc:   NHTSA Audit Liaison, NPO–310
      OST Audit Liaison, M–1
                                                                               12



EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY

We conducted our work from June 2011 through November 2012 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

We reviewed the State of Mississippi, Office of Highway Safety (MOHS) Federal
highway safety grant funding for fiscal years 2007 through 2010. Our objectives
for this audit were to (1) determine whether MOHS sufficiently administered the
Federal highway safety grant program to ensure compliance with Federal grant
requirements and (2) assess the National Highway Traffic Safety Administration’s
(NHTSA) oversight of MOHS’s compliance with Federal grant requirements.

To assess whether MOHS sufficiently administered the Federal grant program in
compliance with Federal requirements, we reviewed key documentation including
NHTSA’s grant policies, procedures, and program guidance. We reviewed the
MOHS operating policies and procedures manual. We interviewed NHTSA
officials at Headquarters and Regional Offices in Atlanta, Georgia, and Fort
Worth, Texas; and State of Mississippi officials including the MOHS Executive
Director, program managers, legal counsel and accounting staff, and an MOHS
contractor. We also interviewed officials from the Office of the Mississippi State
Auditor, the Department of Finance and Administration, and highway safety grant
recipients including the Mississippi Highway Safety Patrol in Jackson,
Mississippi, and selected local law enforcement agencies.

To determine whether MOHS grant expenditures complied with Federal grant
requirements, we tested a three-stage statistical probability proportional to size
sample of grant payments that occurred during fiscal years 2007 through 2010. We
extracted a universe of $45.3 million in 337 payment vouchers from the
Department’s financial accounting system, Delphi. We were unable to reconcile
this universe to the $57.1 million in total grant and transfer reimbursements that
NHTSA made to MOHS. Therefore, we used the Delphi-provided universe of
$45.3 million to select the first stage of our sample―28 Delphi payment vouchers
with a value of $10.4 million. We reconciled this sample to NHTSA’s Grant
Tracking System, and to MOHS’s Federal reimbursement vouchers and grant
financial records. However, annual grant fund balances in NHTSA’s Grant
Tracking System did not reconcile to highway safety grant accounts in the State of
Mississippi’s accounting system.



Exhibit A. Objecti ves, Scope, and Methodology
                                                                                  13


We also examined MOHS’s grant agreements with sub-grantees and tested the
second and third stages of our statistical sample for conformance to Federal grant
policies, procedures, and controls over grant payments and reimbursements. Our
second stage sample contained 73 line items out of the 940 MOHS payments
included in the 28 stage 1 vouchers, and our third stage sample contained 127 line
items out of the 73 stage 2 line items. Our analysis included tests for improper
payments, errors, irregularities, abuses, and illegal acts. To perform our tests, we
made site visits to MOHS and the Mississippi Highway Safety Patrol, and traced
supporting documentation such as grant agreements, reimbursement vouchers,
purchase invoices and property inventories, payroll records and timesheets, travel
records and expense reports, traffic citations, and other related documents to verify
proper authorization, supervisory approvals, and recordkeeping, and to confirm the
appropriateness and validity of payments and reimbursements.

To assess the extent to which MOHS had financial management controls in place
to reduce the risk of fraud, waste, abuse, and mismanagement of funds during
fiscal years 2007 through 2010, we reviewed MOHS’s financial management
controls for administering Federal highway safety grants and tested a statistical
sample of MOHS payments to sub-grantees, as described in the paragraph above,
for compliance with Federal grant requirements. Specifically, we reviewed GAO’s
Standards for Internal Control in the Federal Government to determine internal
control standards relevant to the management of grant programs, the Grant
Common Rule, OMB Circulars A-123 and A-87, the Improper Payments
Information Act, and other relevant Federal guidance and regulations. We
reviewed the State of Mississippi’s Finance and Accounting guidelines on internal
controls in State agencies and interviewed an official in the State of Mississippi’s
Finance and Accounting Office. We reviewed single audit reports on the
Department of Public Safety and contacted a member of the certified public
accounting firm and State Auditor’s Office regarding elements of the reports.

To assess NHTSA’s oversight of MOHS’s compliance with Federal requirements,
we evaluated NHTSA’s policies, procedures, processes, and guidance for
providing oversight to States to ensure that highway safety funds are used for
appropriate safety and enforcement activities by grantees and sub-grantees, and to
enforce actions States are required to take. We interviewed NHTSA officials at
Headquarters and Regional Offices in Atlanta, Georgia, and Fort Worth, Texas,
and MOHS officials in Jackson, Mississippi. We examined NHTSA’s
management reviews of MOHS and resulting corrective action plans. We assessed
NHTSA’s requirements for overseeing high-risk grantees, evaluated NHTSA’s
oversight and enforcement tools, and reviewed NHTSA’s legal authority for
taking enforcement actions. We reviewed the chronology of events before and
after MOHS’s high-risk designation and assessed actions NHTSA took to follow
up on MOHS’s outstanding required and recommended actions.


Exhibit A. Objecti ves, Scope, and Methodology
                                                                                 14



EXHIBIT B. LAW ENFORCEMENT OFFICERS’ ENFORCEMENT
ACTIVITY UNDER SECTION 154 AGREEMENTS
MOHS reimbursement claims to NHTSA for paying State and local law
enforcement officers’ wages did not meet eligibility requirements for the Section
154 transfer program. Both State and local law enforcement agencies used Section
154 transfer funds to pay officers who conducted general law enforcement
activities instead of enforcement activities directly related to alcohol-impaired
driving. Details of our analysis follow.

We analyzed 1,791 citations issued by 68 State police officers in 9 substations,
and 1,135 citations issued by 59 officers in 13 local jurisdictions. Only 147, or
5 percent, of the 2,926 total citations issued were for DUI violations.

Of the 127 State and local officers, 93, or 73 percent, did not issue any DUI
citations during the time periods we analyzed.

The 68 State officers in our statistical sample issued DUI citations at a collective
rate of 1 citation per 66 enforcement hours.

   • Of these, 58 issued 0 DUI citations, and the 10 remaining officers
     collectively issued 15 DUI citations.
   • These 10 officers met our baseline of at least 1 citation per 16 duty hours.

The 59 local officers in our statistical sample issued DUI citations at a collective
rate of 1 citation per 24 enforcement hours.

   • Of these, 35 issued zero DUI citations, and the 24 remaining officers
     collectively issued 132 DUI citations.
   • Of these 24 officers, 11 met our baseline of at least 1 citation per 16 duty
     hours.




Exhibit B. Law Enforcement Officers’ Enforcement Acti vit y Under
Section 154 Agreements
                                                        15


EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                     Title

Kerry R. Barras                   Program Director

Linda G. Morgan                   Project Manager

Ryan P. Sanders                   Senior Analyst

Maurice Toval                     Senior Auditor

Carlton H. Hamilton               Auditor

Farrin Tamaddon                   Analyst

Harriet E. Lambert                Writer-Editor

Amy J. Berks                      Senior Counsel

Petra Swartzlander                Senior Statistician

Megha P. Joshipura                Statistician




Exhibit C. Major Contributors to This Report
                                                                                                         16



           APPENDIX. AGENCY COMMENTS


           U.S. Department
                                                                 Memorandum
           of Transportation
           National Highway
           Traffic Safety
           Administration

Subject:     Response to OIG Draft Report on NHTSA’s Oversight of                  Date:
             Mississippi’s Management of Federal Highway Safety Grants

  From:      Brian M. McLaughlin                                                 Reply to
                                                                                Attn. Of:
             Senior Associate Administrator
              Traffic Injury Control

    To:      Joseph W. Come
             Assistant Inspector General for
               Highway and Transit Audits

           NHTSA Grant Monitoring Detected Deficiencies

           NHTSA carefully monitors States’ use of highway safety grants in accordance with the Regional
           Monitoring Policy which requires annual project file reviews, on-site monitoring of subgrantees,
           and voucher reviews. NHTSA also conducts a triennial Management Review in each State that
           addresses organization and staffing, program management, and financial management. For States
           that are designated high risk, the level of oversight heightens. In addition to regular oversight,
           NHTSA reviews all large individual project proposals before they are executed, as well as
           proposed out-of-state travel. We also require justifications for new federally funded positions,
           and increase voucher reviews during our more frequent on-site visits.

           NHTSA identified significant deficiencies in the Mississippi Office of Highway Safety (MOHS)
           management of NHTSA safety grant funds dating back to 2006. Since that time, NHTSA has
           been working to improve compliance with grant requirements by the State and MOHS.
           Specifically, NHTSA has been calling upon MOHS to improve its overall financial controls
           compliance with specific grant requirements. NHTSA has also made recommendations to assist
           the grantee in making the changes necessary to improve compliance with Federal requirements.
           In 2010, during a review to monitor the State’s progress in addressing some of these issues,
           NHTSA determined that MOHS used Section 154 transfer funds for ineligible expenses, and
           subsequently requested the DOT OIG to audit the MOHS to determine the extent of inappropriate
           use of Federal grant funds under Section 154. These funds are only allowed to be used for
           impaired driving countermeasures, but NHTSA determined that some of these funds were used
           for general traffic safety activities. While some progress was achieved, continued instances of
           inappropriate use of Federal funds and inadequate oversight by MOHS resulted in NHTSA
           designating MOHS as a high risk grantee in January 2011.




           Appendix. Agency Comments
                                                                                                  17


NHTSA continues working to ensure that MOHS becomes fully compliant with Federal
requirements for the use of Section 154 funds and that the funds are used as intended by law.
MOHS is working to implement the recommendations from NHTSA’s FY 2009 Management
Review. In addition, MOHS must implement systems and procedures that would be constructive
in leading to a discontinuation of its designation as a high risk grantee. Finally, NHTSA will
implement an extended oversight plan for at least two years subsequent to MOHS’ de-designation
as a high risk grantee, to further ensure compliance with the law and the implementation of
effective internal controls by the State.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: Work with MOHS to develop an action plan, with milestones, to:

a. Obtain technical assistance to identify and implement financial management internal controls
   to comply with the Grant Common Rule; Government Accountability Office Standards for
   Internal Control; and other applicable laws, regulations, and program compliance
   requirements.
b. Implement improved processes to calculate reimbursement claims to NHTSA, such as an
   automated grants system used by other State highway safety offices.
c. Obtain independent assurance that proper grant management controls and financial and
   accounting procedures are in place and working effectively.
d. Develop guidance for monitoring the use of local officers as full-time driving under the
   influence officers to ensure appropriate use of Section 154 funds.

Concur. NHTSA will continue to provide technical assistance and monitoring of grant funds
relating to Section 154 grants as MOHS works to move beyond high risk grantee status and
achieve full compliance with all Federal requirements. As part of these efforts, NHTSA will
direct the State to complete an action plan with milestones that covers, at a minimum, the four
areas touched upon in this recommendation. While completion of this action is contingent on
MOHS, NHTSA intends to establish a goal of completing this plan no later than December 31,
2013.

It is important to recognize that MOHS has made some significant improvements in response to
NHTSA’s enhanced monitoring and oversight. These include:

    •   Hiring a Finance Manager in June 2012, who is experienced in governmental accounting
        and skilled in developing financial reports. She has completed NHTSA’s Managing
        Federal Finances Course, the Highway Safety Program Management Course, and
        DELPHI training. NHTSA Region 6 also provided her special orientation and Grants
        Tracking System (GTS) training in 2012.

    •   Creating an internal auditor position, as identified in the MOHS FY13 Highway Safety
        Plan. The position is schedule to be filled in January 2013.

    •   Developing a new MOHS Policies and Procedures Manual during FY 2012, which
        incorporates financial internal controls. MOHS also conducted staff training on the
        manual. NHTSA will work with MOHS to enhance and update the manual as necessary
        and to address monitoring of full-time and part-time officers used for Section 154 funded
        DWI patrols. NHTSA will also monitor implementation of MOHS policies and
        procedures.

    •   Utilizing NHTSA’s grant tracking system and entering vouchers at the project level.


Appendix. Agency Comments
                                                                                                18



Recommendation 2: Develop an action plan for monitoring Mississippi’s grant agreements with
sub-grantees, once the high risk designation is removed, to ensure compliance with Federal
requirements.

Concur. When the MOHS high risk designation is removed, NHTSA will continue to provide
monitoring and oversight in accordance with the NHTSA Regional Monitoring Policy. The
Policy requires an annual monitoring plan for each state. The Region will develop a monitoring
plan that will supplement the minimum requirements with additional monitoring activities,
including project proposal reviews, project file reviews, voucher reviews and on-site project
monitoring. This monitoring plan will be designed to carefully monitor MOHS for at least two
fiscal years following the discontinuation of the state’s designation as a high risk grantee. Since
important elements of the plan will be dependent on particulars involving the state’s actions to
emerge from the high risk designation, NHTSA intends to have the plan developed when the
state is removed from high risk. NHTSA will also conduct a Management Review in Mississippi
in FY 2015.

Recommendation 3: Identify actions NHTSA will take to recover improper payments.

Concur. NHTSA is in the process of reviewing actions that may be required to recover any
improper payments in Section 154 funds. To facilitate these efforts, NHTSA looks forward to
the continued cooperation of the OIG in providing specific information used in the OIG’s
analysis. Therefore, we request that OIG provide NHTSA with the specific statistical sample
results used in its report. Subsequent to the receipt and review of this information and analysis
of relevant legal authorities, NHTSA will determine the appropriate further actions. Our
tentative goal for making this determination is March 31, 2013.

Recommendation 4: Develop guidance with parameters and timelines for designating State
grantees as high-risk, restricting or withholding grant funds from grantees, and implementing
other available remedies and sanctions for noncompliance with Federal grant regulations or
requirements.

Concur. With the implementation of MAP-21, NHTSA will update grant administration and
oversight policies and procedures, including procedures related to high-risk status. NHTSA will
identify contributing factors and elements leading to implementation of special conditions, high-
risk designation, and other sanctions. These factors may include questioned or incomplete
vouchers, unallowable use of funds, inadequate project documentation, and other internal control
deficiencies. NHTSA’s updated policies will include guidance based on the ongoing presence of
these and other identified risk factors, and provides direction on how to consider and weigh these
factors when evaluating whether to categorize a State as high risk.

We will update our grant administration and oversight policies and procedures by July 2014.




Appendix. Agency Comments
